No. 20A-108

IN THE

SUPREME COURT OF THE UNITED STATES
__________________________________________________
STATE OF LOUISIANA, Applicant,
v.
TAZIN ARDELL HILL, Respondent.
PROOF OF SERVICE
I, Richard Bourke, do swear or declare that on this date, December 18, 2020, as
required by Supreme Court Rule 29 I have served the enclosed OPPOSITION TO
APPLICANT’S EMERGENCY APPLICATION FOR A STAY on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by causing to be deposited an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3
calendar days.
The names and addresses of those served are as follows:
Jeff Landry
Louisiana Attorney General
Elizabeth B. Murrill
Solicitor General
Shae McPhee
Deputy Solicitor General
Josiah M. Kollmeyer
Assistant Solicitor General
Louisiana Department of Justice
1885 N. Third Street
Baton Rouge, LA, 70804

Tyler R. Green
Consovoy McCarthy PLLC
222 S. Main Street, Suite 500
Salt Lake City, UT 84111
Telephone: 703-243-9423
Keith Stutes
District Attorney
Roya Boustany
Assistant District Attorney
15th JDC, Lafayette Parish
800 South Buchanan St., 6th floor
Lafayette, LA 70501

1

I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 18, 2020.
/s/ Richard Bourke
RICHARD BOURKE, Counsel of Record
Attorney for Petitioner
Dated: December 18, 2020

2

